REVIEW OF NRC’S CONTROLS OVER
   WORK PERFORMED UNDER
            CISSCO

   OIG/99A-13 March 14, 2000
                                         March 14, 2000




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations


                              Stuart Reiter
                              Acting Chief Information Officer


FROM:                         Thomas J. Barchi
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRC’S CONTROLS OVER
                              WORK PERFORMED UNDER CISSCO


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s Controls Over
Work Performed Under CISSCO. This report reflects the results of our review of the quality,
timeliness, and reasonableness of costs of work and services performed under the Comprehensive
Information Systems Support Consolidation (CISSCO) program.

We received your March 6, 2000, response to our draft report in which you agreed with our
recommendations and provided time frames for the actions you plan to take.

Please contact me at 415-5915 if you have any questions or if I can provide any additional
information.


Attachment: As stated
                                          Review of NRC’s Controls Over Work Performed Under CISSCO



REPORT SYNOPSIS

        In 1996, the U.S. Nuclear Regulatory Commission’s (NRC) Office of Information
        Resources Management, now the Office of the Chief Information Officer (OCIO),
        began to integrate the Agency’s numerous computer systems efforts into one
        contract through a strategy it termed the Comprehensive Information Systems
        Support Consolidation (CISSCO) program. CISSCO consists of a single contractor,
        using several subcontractors, to provide a wide-range of information technology
        services. NRC contracted with the Federal Systems Integration and Management
        Center of the General Services Administration (GSA/FEDSIM) to procure and
        manage the services required under CISSCO. In August 1996, GSA/FEDSIM
        engaged Computer Sciences Corporation as the prime contractor for meeting the
        needs of CISSCO.(1)

        In June 1998, we performed a survey of CISSCO that raised questions about the
        adequacy of related management controls. Subsequently, we initiated a review of
        CISSCO, specifically in terms of the quality, timeliness, and reasonableness of
        costs for work performed under CISSCO.(2) In general, we found that, while
        improvements can be made, the Agency has established an adequate process to
        assure quality products are delivered in a timely manner. In contrast, we found that
        NRC has not provided the same degree of assurance with regard to the cost of
        work performed under CISSCO.

        In addition, we found that more than 150 Agency staff could be assigned CISSCO
        Task Manager (TM) duties. We also found that the skills and experience levels of
        TMs vary widely and that many do not feel sufficiently trained to effectively manage
        IT work. In our opinion, assigning TM duties to such a large number of individuals,
        with widely varying levels of skills and experience, may not be the most efficient or
        effective method for managing CISSCO work. We believe that the Agency should
        identify the skills needed to successfully accomplish TM duties, and ensure that
        staff appointed as TMs are able to effectively manage work under CISSCO.

        We also examined whether the Agency has evaluated the effectiveness of its
        arrangement with GSA/FEDSIM. We found that the Agency has not formally
        evaluated the performance or effectiveness of GSA/FEDSIM’s involvement in the
        CISSCO arrangement. As a result, we question whether the Agency has sufficient
        assurance that it is effectively expending its resources on the GSA/FEDSIM
        agreement.


    1
        The scope of this audit did not encompass the basis for the structure of the CISSCO
        program. We are currently reviewing this issue and will report our findings at a later
        date.
    2
        During our review, we also issued a report related to CISSCO funding procedures,
        OIG/98A-18, Controls Over Funding for CISSCO Need Improvement, dated May 1999.

        OIG/99A-13                                                                           Page i
Review of NRC’s Controls Over Work Performed Under CISSCO



                Finally, in response to issues we raised during our review, the Office of
                Administration formed a task group to develop guidance on the award and
                administration of NRC’s Interagency Agreements, including interagency
                arrangements such as that with GSA/FEDSIM. Also, OCIO officials, in a recent
                meeting with our office, committed to performing the evaluations of GSA/FEDSIM
                suggested by NRC Management Directive (MD) 11.1 and to ensuring compliance
                with the new MD covering interagency agreements.

                This report makes three recommendations to improve the program.




                OIG/99A-13                                                               Page ii
                                                     Review of NRC’s Controls Over Work Performed Under CISSCO




TABLE OF CONTENTS


        REPORT SYNOPSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                  BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
        RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                  SOME RISKS HAVE NOT BEEN ADEQUATELY ADDRESSED . . . . . . . . . . . . . . . . 3
                             PROPOSED RISK MITIGATORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                             COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                                        INDEPENDENT GOVERNMENT COST ESTIMATES . . . . . . . . . . . 6
                                        NEGOTIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                                        INDICATIONS OF HIGH COSTS . . . . . . . . . . . . . . . . . . . . . . . . . 7
                             QUALITY ASSURANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                  TASK MANAGERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                  NRC DOES NOT FORMALLY EVALUATE THE EFFECTIVENESS OF
                  USING GSA/FEDSIM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                  MANAGEMENT ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
        CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
        OIG COMMENTS ON THE AGENCY’S RESPONSE . . . . . . . . . . . . . . . . . . . . . 14

        APPENDICES
                 I           OBJECTIVES, SCOPE, AND METHODOLOGY
                II           CISSCO PROGRAM SURVEY RESULTS
                III          ABBREVIATIONS AND ACRONYMS
               IV            AGENCY RESPONSE TO DRAFT REPORT
                V            NRC ORGANIZATIONAL CHART
               VI            MAJOR CONTRIBUTORS TO THIS REPORT
              VII            OFFICE OF THE INSPECTOR GENERAL PRODUCTS




        OIG/99A-13
                                         Review of NRC’s Controls Over Work Performed Under CISSCO




INTRODUCTION

         The Nuclear Regulatory Commission’s (NRC) primary vehicle for the development,
         operation, maintenance, and support of the Agency’s information technology
         systems and for related operations support is called the Comprehensive Information
         Systems Support Consolidation (CISSCO) program. In June 1998, the Office of
         the Inspector General (OIG) performed a survey of the CISSCO program, with
         regards to Clinger-Cohen Act(1) requirements, that raised questions about the
         adequacy of related management controls. As a result, we initiated a review of
         NRC’s controls over the use of resources applied to work performed under
         CISSCO. During our review, we also issued a report related to CISSCO funding
         procedures.(2)

         The main objectives of this review were to determine, with regard to CISSCO,
         whether: (1) NRC is ensuring that (a) projects are completed at a reasonable cost,
         (b) quality assurance measures are adequate, and (c) products are received in a
         timely manner; and (2) NRC is evaluating the effectiveness of using the Federal
         Systems Integration and Management Center of the General Services
         Administration (GSA/FEDSIM). Appendix I contains information about our
         objectives, scope, and methodology. Also, as part of this effort, we obtained the
         opinions of a large number of personnel associated with the CISSCO program and
         developed a Survey instrument which was administered to 121 individuals.
         Appendix II contains additional information about the CISSCO Program Survey.
         This effort was part of OIG’s fiscal year (FY) 1998 Annual Plan.

    BACKGROUND

         One of NRC’s long-term goals in the FYs 1994-1998 Information Technology (IT)
         Strategic Plan was to implement an open systems client/server environment for the
         development, integration, and full life cycle management of new application systems
         and the re-engineering, maintenance, or enhancement of previously developed
         systems. In 1994, the Office of the Chief Information Officer (OCIO)(3) was tasked
         to help integrate the Agency’s numerous computer systems efforts into one
         contract. In order to achieve the goals of the IT Strategic Plan, OCIO needed to
         provide: agency-wide application development and support tools; training and
         technical support to assist their customers in re-engineering their applications; and,
         contractor support working directly with their customers to best serve their needs.



    1
         The Clinger-Cohen Act of 1996 sets forth requirements for the Government’s acquisition
         of information technology.

    2
         OIG/98A-18, Controls Over Funding for CISSCO Need Improvement, dated May 1999.
    3
         In October 1997, the Office of Information Resources Management was incorporated
         into OCIO. Both offices will be referred to as OCIO throughout this report.

         OIG/99A-13                                                                         Page 1
Review of NRC’s Controls Over Work Performed Under CISSCO



                OCIO chose to provide that support through a program it termed CISSCO. CISSCO
                consists of a single contractor, using several subcontractors, to provide a wide-
                range of services for the development, operation, maintenance, and support of
                applications software systems and for related operations support.(4)

                In addition, one of the Agency’s IT objectives was to bring the development, life
                cycle management, and operations of systems within a framework of standards and
                consistent methodologies. To that end, OCIO developed the System Development
                and Life-Cycle Management (SDLCM) Methodology to provide structure and
                guidance to NRC IT projects through the use of a comprehensive and consistent
                methodology.

                In July 1995, NRC entered into a Basic Agreement (BA) (5) with GSA/FEDSIM to
                provide assistance in developing the acquisition strategy to procure the services
                required under CISSCO. In January 1996, OCIO made the decision to employ
                GSA/FEDSIM, rather than NRC’s own procurement office, to provide dedicated
                Contract Office support for CISSCO through the use of its FEDSIM 9600 multiple
                award contract (MAC). In June 1996, NRC modified the BA to retain
                GSA/FEDSIM’s services for a 5-year period. Subsequently, in August 1996,
                GSA/FEDSIM engaged Computer Sciences Corporation (CSC) as the prime
                contractor for meeting the needs of CISSCO. Therefore, there are two agreements
                connected to CISSCO work: (1) the BA with GSA/FEDSIM which included
                identifying and selecting CSC, and now includes the ongoing monitoring of CSC;
                and, (2) GSA/FEDSIM’s Task Order with CSC to perform information technology
                work required by NRC under CISSCO.(6)            The BA is a time and materials
                agreement and the GSA/FEDSIM Task Order with CSC is a cost-reimbursable
                arrangement with limited firm-fixed price work. In a cost-reimbursable arrangement,
                the actual costs to NRC will be based on CSC’s resources actually expended which
                can differ from its initial estimates.

                The GSA/FEDSIM Task Order with CSC is for one Base year, with four Option
                years. The third Option year has been exercised. The initial projected cost of the
                full 5-year contract was $46.5 million and, through September 1999, NRC has
                expended about $29 million on work under CISSCO.




        4
                The agency has made it mandatory that CISSCO be considered for all appropriate IT
                work. However, the CIO can grant a waiver to use another contract arrangement. To
                date, only a few such waivers have been given.
        5
                For the purposes of the CISSCO program, the term Basic Agreement is synonymous
                with Interagency Agreement.
        6
                The scope of this audit did not encompass the basis for the structure of the CISSCO
                program. We are currently reviewing this issue and will report our findings at a later
                date.

                OIG/99A-13                                                                          Page 2
                                          Review of NRC’s Controls Over Work Performed Under CISSCO



RESULTS OF AUDIT

          By obtaining a contractor through the FEDSIM 9600 MAC, the Agency is provided
          a level of assurance that the selected contractor will provide quality IT products and
          services in a timely manner. In general, we found that, although improvements can
          be made, the Agency has provided further assurance of quality through its
          implementation of SDLCM and CSC’s adherence to that methodology. We also
          found that CSC has generally met proposed schedules for product and service
          delivery and that Agency staff have few concerns in this area.

          In contrast, we found that, even though the FEDSIM 9600 MAC established ceilings
          for labor rates, NRC is not provided the same degree of assurance with regard to
          CISSCO costs. This is due largely to the Agency’s decision to have all work
          performed by a single contractor. We determined that the Agency has not
          adequately addressed the cost risks associated with this arrangement.

          In addition, we found that more than 150 Agency staff could be assigned CISSCO
          Task Manager (TM) duties. We also found that the skills and experience levels of
          TMs vary widely and that many do not feel sufficiently trained to effectively manage
          IT work. In our opinion, assigning TM duties to such a large number of individuals,
          with widely varying levels of skills and experience, may not be the most efficient or
          effective method for managing CISSCO work. We believe that the Agency should
          identify the skills needed to successfully accomplish TM duties, and ensure that
          staff assigned TM duties are able to effectively manage work under CISSCO.

          Also, we found that the Agency has not formally evaluated the performance or
          effectiveness of GSA/FEDSIM’s involvement in the CISSCO arrangement. As a
          result, we question whether the Agency has sufficiently assured the efficient use
          of resources expended on CISSCO-related products and services.

          In addition to our main objectives, our review encompassed a number of additional
          CISSCO activities. To that end, we determined that (1) CSC’s charges for the cost
          of estimates are allowable, (2) CSC appropriately bills for employees not on the
          dedicated CISSCO team, and (3) CSC employees not on the dedicated CISSCO
          team are correctly accounted for in Small Business reports.


    SOME RISKS HAVE NOT BEEN ADEQUATELY ADDRESSED

          As part of our review, we examined proposed risk mitigators, the reasonableness
          of CISSCO costs, and the Agency’s efforts with quality assurance. The Federal
          Acquisition Regulation (FAR) states that, prior to entering into a contract for
          information technology, an agency should analyze risks, benefits, and costs. The
          CISSCO strategy raised a number of risk concerns which OCIO asserted would be
          addressed by risk mitigators incorporated into the program. However, we found that
          many of the proposed mitigating controls are not in place and that NRC has not



          OIG/99A-13                                                                         Page 3
Review of NRC’s Controls Over Work Performed Under CISSCO



                sufficiently assured the reasonableness of CISSCO costs. We also believe the
                Agency can more proactively ensure the efficient expenditure of resources for
                quality assurance.

                PROPOSED RISK MITIGATORS

                Prior to the Agency’s selection of the single contractor approach for CISSCO, the
                Office of Administration’s Division of Contracts and Property Management
                (ADM/DCPM) identified several risk areas related to the CISSCO arrangement.
                OCIO responded that risk mitigators incorporated into CISSCO would safeguard
                against the identified risks. However, we found that OCIO has discontinued, or in
                some instances, never implemented a number of the proposed controls.

                As stated above, OCIO assessed the risk areas identified by DCPM prior to
                CISSCO’s implementation and concluded that CISSCO would not pose an
                unacceptable level of risk to the Agency. OCIO supported its conclusion by
                proposing that a number of risk mitigators would be incorporated into CISSCO,
                including:

                1.      NRC staff would review, approve, and authorize all work.

                2.      NRC and GSA/FEDSIM would develop the Independent Government Cost
                        Estimate (IGCE).

                3.      An NRC contract management team would be solely dedicated to CISSCO.

                4.      An NRC Senior Management Team would provide periodic reviews of
                        CISSCO project management.

                5.      An independent validation and verification (IV&V) contractor would assist
                        OCIO’s program director in reviewing contractor technical proposals, as well
                        as auditing the work performed under the FEDSIM contract [a cost control].

                6.      All CISSCO Task Managers would receive specialized program
                        management training.

                7.      All CISSCO requirements would not be completed under just one task
                        order; several task orders were anticipated with technical oversight provided
                        by the “prime” task order awardee.

                A GSA/FEDSIM official told us that he understood that the CISSCO approach to
                cost control was to be based on an IV&V contractor. He also stated that managing
                costs for individual tasks (monitored through individual Task Assignment Control
                (TAC) numbers) hinged on the expertise and control of the TMs.




                OIG/99A-13                                                                     Page 4
                                      Review of NRC’s Controls Over Work Performed Under CISSCO



    In addition, FAR requires that interim evaluations be performed on multi-year
    contracts greater than $100,000. In our opinion, these evaluations would provide
    valuable information about CSC performance. Under CISSCO, GSA/FEDSIM would
    perform such evaluations.

    The CISSCO concept was approved by NRC senior management based, in part,
    on the risk mitigators proposed by OCIO. However, we found that, although NRC
    staff review and approve all work, many of the other proposed control features were
    not implemented. For example (as numbered above):

    2.      GSA/FEDSIM is not involved in preparing IGCEs.(7)

    4.      An Executive Oversight Team was formed and held two meetings in the
            early stages of CISSCO’s implementation. However, this team was
            disbanded by the Chief Information Officer (CIO) who determined that the
            additional management oversight was no longer needed.

    5.      Although an IV&V contract was placed, the contract was canceled by the
            CIO due to budget considerations and his opinion that his staff could
            adequately oversee the CISSCO program.

    6.      Training for CISSCO TMs consists of two overview courses: one 2½-hour
            class on CISSCO procedures, one 4-hour class on SDLCM. Although these
            courses meet the intent of the agreement to provide specialized training,
            neither course addresses the preparation of IGCEs or Statements of Work
            (SOW).

    7.      All CISSCO requirements have been addressed with one Task Order.

    Additionally, although GSA/FEDSIM was to provide third-party objectivity with
    unbiased, independent reviews under CISSCO, we found that GSA/FEDSIM relies
    almost solely on feedback from NRC TMs to gauge CSC work. We also determined
    that GSA/FEDSIM has not performed the evaluations noted in FAR.

    COSTS

    The GSA/FEDSIM 9600 MAC Task Order Contract with CSC resulted from
    competition and established ceiling rates for CSC hourly labor. However, the
    overall cost of non-fixed fee projects is dictated not by the labor rate but by the
    hours worked plus fees and other direct and indirect costs. Costs are also affected
    by the skill levels of contractor personnel, contractor personnel turnover, and the
    contractor’s work processes, among other things.




7
    Although it was expected that GSA/FEDSIM would perform this duty, a GSA/FEDSIM
    official told us that given that the agreement with NRC is a time and materials contract,
    they will only carry out these duties at NRC’s request.

    OIG/99A-13                                                                           Page 5
Review of NRC’s Controls Over Work Performed Under CISSCO



                In our opinion, the use of a single contractor and the absence of many of the
                proposed risk mitigators makes the effective use of existing cost controls even more
                crucial. In addition, more than 20 percent of CISSCO work is performed by
                subcontractors and other CSC units not subject to the labor rates set in FEDSIM
                9600. To that end, we reviewed CISSCO IGCEs to determine their effectiveness
                in planning and subsequent negotiation. We found that the IGCEs are ineffective
                as a cost control and that CSC estimates are generally non-negotiable.

                Independent Government Cost Estimates

                FAR states that “a cost is reasonable if, in its nature and amount, it does not exceed
                that which would be incurred by a prudent person in the conduct of competitive
                business. Reasonableness of specific costs must be examined with particular care
                in connection with firms or their separate divisions that may not be subject to
                effective competitive restraints. No presumption of reasonableness shall be
                attached to the incurrence of costs by a contractor.”

                The IGCE is the Government’s estimate of the resources, and the estimated cost
                of resources, a prudent contractor will incur in the performance of a contract. The
                IGCE is used to evaluate proposals to determine whether price or expected cost is
                fair and reasonable. The quality and price of an acquisition is dependent on the
                accuracy and reliability of the IGCE. Variations between the contractor’s proposal
                and the IGCE require analysis since parts of the IGCE, especially first time
                acquisitions, are based on uncertainties. Knowing where these uncertainties exist
                allows the IGCE to be a useful tool in the evaluation process and in the
                determination of a fair and reasonable price. Department of Defense training
                documents describe the IGCE as one of the most important factors to be
                considered in making mandatory determination that the proposed contract price is
                fair and reasonable.

                The NRC CISSCO Task Management Guide states that the IGCE (1) provides a
                guide to fair and reasonable pricing, (2) is used to evaluate cost realism and the
                underlying cost assumptions of the contractor’s response, and (3) establishes a
                basis for reasonable negotiations. Additionally, according to Agency project
                manager training material, a well-written SOW is crucial to developing a useful
                IGCE, and also serves as a standard to judge the efficiency of contractor
                performance.

                After receiving CSC’s response to a work request, NRC personnel compare the
                dollar amount estimated by CSC to the IGCE. Any sizeable differences would
                indicate that there might be a misunderstanding of the work requirements or in the
                scope of the requested work; a difference might also indicate an error in the
                contractor’s proposed cost. In order to be effective, an IGCE should closely reflect
                the probable actual cost of the project. After comparing the IGCE to the CSC
                estimate, NRC personnel can negotiate with CSC on the cost and scope of the
                TAC.

                In order to gain an understanding of the effectiveness of CISSCO IGCEs, we

                OIG/99A-13                                                                      Page 6
                                    Review of NRC’s Controls Over Work Performed Under CISSCO



    analyzed data from the CISSCO TAC System (CTACS).(8) CTACS contains both
    the NRC estimate amounts (IGCEs) and the estimates submitted by CSC with its
    written response to NRC work requests. Based on our analysis, only 43 percent of
    CISSCO IGCEs are within 25 percent of the CSC-proposed cost. Because the
    IGCEs generally differ significantly from the accepted costs for a project, we believe
    they are not fully effective for planning and budgeting purposes. In addition, IGCEs
    are not useful in negotiations (see next section).

    To be an effective cost control, IGCEs must be prepared independently. However,
    TMs told us that in order to have the appropriate amount of funds set aside, they
    adjust their IGCEs to try to get closer to what they anticipate CSC’s estimates will
    be (despite the differences noted above). Given this, we question whether IGCEs
    are being prepared independently as intended. Therefore, they will have little, if
    any, effect on ensuring the reasonableness of CISSCO costs. Furthermore, we
    found that GSA/FEDSIM does not receive or review IGCEs, thereby eliminating any
    contracting office insight.

    Negotiations

    Prior to submitting a work request to CSC, the Agency prepares an SOW and an
    IGCE which are to be used as the basis for negotiating a final price and scope with
    CSC, if necessary. After receiving the CSC proposal, Agency personnel
    presumably would negotiate with CSC on these details. However, NRC Task
    Managers told us that CSC’s proposed costs for a TAC are generally non-
    negotiable. Task Managers also told us that the only method for reducing costs is
    to reduce the scope of the requested work. CSC officials confirmed this. Once
    CSC has constructed its cost estimate, it does not lower that estimate except with
    an associated agreement to reduce the level of effort.

    Indications of High Costs

    In a non-competitive situation, it is very difficult to directly evaluate the
    reasonableness of the cost of a project. However, TMs identified several TACs that
    raise questions regarding CISSCO costs, including the following two examples:

    C       The cost of a TAC to provide an update to a database for annual changes
            to budget tracking software was about $12,800 for FY 1997. The same
            work for FY1998, based essentially on a copy of the FY 1997 SOW, cost
            about $32,580.




8
    CTACS is the system used by NRC and CSC CISSCO program staff to track data on
    individual TACs.

    OIG/99A-13                                                                         Page 7
Review of NRC’s Controls Over Work Performed Under CISSCO



                •       A TAC was issued to create an interface utility program, which would allow
                        the conversion and transporting of data between two systems. CSC's
                        estimate for the work was $10,977. The program office declined CSC’s
                        proposed cost and subsequently issued the identical SOW to an outside
                        contractor which completed the work within 2 weeks for $900.(9) The
                        program office stated that they received a quality product.

                In addition, the Agency has created at least one agreement outside of CISSCO
                designed to complete work on smaller-scale systems. Some work of this type is
                also performed in-house to overcome inefficiencies in getting smaller types of jobs
                completed under CISSCO. We found that about one-third of CISSCO tasks cost
                less than $10,000. This indicates that the Agency might benefit further from
                addressing potential inefficiencies in performing the large number of smaller tasks
                being conducted under CISSCO.

                Costs were the main concern of respondents to our CISSCO Program Survey. They
                said they feel that costs under CISSCO are commensurate with work completed
                between “half” and “most” of the time, a low score in our opinion. In addition, more
                than 70 percent of the respondents indicated that competition would benefit the
                Agency in controlling costs.

                Senior CISSCO program officials told us they are confident, based on personal
                experience and the lack of evidence to the contrary, that CSC costs are reasonable.
                Therefore, they do not believe that it would be cost-beneficial to test the
                reasonableness of CSC costs. At the same time, according to these officials, it is
                the CISSCO TMs who have the ultimate responsibility for assessing and ensuring
                the reasonableness of costs. However, according to our Survey, 82 percent of
                TMs indicated that they did not feel they have adequate control over costs under
                CISSCO.

                QUALITY ASSURANCE

                According to CISSCO program officials, quality assurance (QA) is the responsibility
                of CSC and they believe that CSC is adequately ensuring the quality of its products
                and services through its internal QA efforts. We examined the Agency’s efforts to
                ensure the quality of products and services delivered under CISSCO. We found
                that NRC relies on CSC’s compliance with SDLCM, CSC’s CISSCO Quality
                Assurance Plan (QA Plan), and on TM feedback to ensure quality. Respondents
                to our Survey, including TMs, said they were satisfied with the quality of CSC
                products “most of the time.” However, we also found that much QA documentation
                is being produced by CSC, per their CISSCO QA Plan, that is not being reviewed
                by either GSA/FEDSIM or NRC personnel. As a result, we believe the Agency
                cannot ensure that resources directed toward QA are being used efficiently.

                FAR defines Government contract QA as the various functions, including


        9
                The Agency also paid approximately $1,969 to CSC for the cost of the estimate.

                OIG/99A-13                                                                       Page 8
                                      Review of NRC’s Controls Over Work Performed Under CISSCO



      inspections, performed by the Government to determine whether a contractor has
      fulfilled the contract obligations pertaining to quality and quantity. The contracting
      office is responsible for developing and applying efficient procedures for performing
      Government contract QA actions under the contract; performing all actions
      necessary to verify whether the supplies or services conform to contract quality
      requirements; and maintaining suitable records reflecting the nature of Government
      contract QA actions. In addition, the contracting office is responsible for
      recommending any changes necessary to the contract, specifications, instructions,
      or other requirements that will provide more effective operations or eliminate
      unnecessary costs.

      Under the Task Order agreement with GSA/FEDSIM, CSC is given responsibility
      for overall QA. However, the agreement also states that Government QA will be
      conducted throughout the CISSCO program to verify that all contractor delivered
      products and services conform to the requirements of the Basic Agreement
      between GSA/FEDSIM and NRC, the Task Order with CSC, and the standards and
      established methodologies for IT development.

      According to the NRC CISSCO Task Manager Guide, the CISSCO Program
      Management team includes Task Area Leads, who have specific responsibilities for
      QA and quality control, and TMs, who are responsible for ensuring that TACs are
      completed with quality through monitoring of contractor performance. However, we
      found that neither GSA/FEDSIM, the contracting office, nor NRC are examining
      CSC’s work performed under its QA Plan.

      In our opinion, the Agency should be more proactive to ensure that QA efforts are
      both effective and efficient. Without sufficient review and monitoring of CSC’s QA
      efforts, specifically the QA Plan, the Agency cannot be sure that it is expending its
      resources efficiently. As suggested by FAR, we believe that surveillance, for
      example, of CSC QA activity, is a proactive measure that can ensure not only that
      quality is built into this work but also that excessive or unnecessary QA costs are
      not incurred. Such proactive effort is less costly than attempting to inspect for
      quality after work is completed (e.g., through TM feedback). We also believe that
      NRC should ensure the performance of sufficient monitoring so that it can
      effectively, as indicated by FAR, recommend any changes necessary to the
      contract, specifications, instructions, or other requirements that will provide more
      effective operations or eliminate unnecessary costs.

T ASK MANAGERS

      CISSCO Task Managers play a significant role in the evaluation and assessment
      of the cost, quality, and timeliness of CISSCO IT services and products. OCIO
      senior managers and CISSCO program officials told us that TMs are responsible,
      and accountable, for these details for each TAC they manage. We found that the
      skills and experience levels of TMs under CISSCO vary widely, and that many of
      these TMs do not feel sufficiently trained to effectively manage IT work. We found
      that more than 150 staff could, at some point, be given the responsibility of
      managing CISSCO TACs. We believe that assigning task management duties to

      OIG/99A-13                                                                         Page 9
Review of NRC’s Controls Over Work Performed Under CISSCO



                such a large number of TMs, with widely varying levels of skills and experience, may
                not be the most efficient or effective method for managing CISSCO work.

                Management Directive (MD) 10.77, Employee Development and Training, states
                that NRC’s objectives are to provide training and development programs for
                employees to maintain the skills needed to perform their current job effectively, and
                to broaden their capabilities to meet future skill needs of the Agency. The MD also
                states that it is the responsibility of the Office of Human Resources (HR) to
                establish, operate, maintain and evaluate nontechnical training programs to improve
                individual and organizational performance in support of accomplishing the mission
                of the Agency. According to the MD, Office Directors are to periodically provide
                forecasts of training needs to the Director, HR, and Line Managers and Supervisors
                are required to meet at least semiannually with staff to ensure that all are qualified
                to perform assigned tasks.

                According to the NRC CISSCO Task Manager Guide and CISSCO program
                officials, TMs are responsible for ensuring that TACs are completed with quality, on
                schedule, and within budget through monitoring of contractor performance. Also,
                as previously stated, GSA/FEDSIM relies on feedback from TMs to gauge CSC
                work. In other words, TMs are relied upon to provide assessments of the quality of
                work performed by CSC and the reasonableness of the cost of that work. However,
                we found that many TMs do not feel they have been sufficiently trained to properly
                plan or manage CISSCO work. In addition, CISSCO program officials told us that
                the TMs, especially those not in OCIO, may lack the IT knowledge and experience
                necessary to manage IT work.

                In order to understand the experience levels of TMs under CISSCO, we reviewed
                data regarding the TACs they manage. The results are shown in Table 1.


                Table 1: Number of TACs Managed by TMs

                 Number           Number of         Percent of      Total Number           Percent of Total
                 of TACs          TMs               TMs             of TACs                Number of TACs
                 Managed          (61 total)           (%)          (of 275 total)               (%)
                             >3                20             33                     203                74
                              3                 9             15                      27                10
                              2                13             21                      26                  9
                              1                19             31                      19                  7

                 TOTALS                        61           100%                     275              100%

                Source: OIG analysis of CTACS data as of September 9, 1999




                OIG/99A-13                                                                            Page 10
                                    Review of NRC’s Controls Over Work Performed Under CISSCO



As shown in the table, 74 percent of these TACs were managed by only 33 percent
of the Task Managers (those who have managed more than 3 TACs). The
remaining 26 percent were managed by 67 percent of the TMs (those who have
overseen three or fewer TACs). That is, a large number of TMs are managing very
few TACs. Table 2 shows a breakdown by NRC program office.


Table 2: Number of TACs Managed by TMs by Office

 Program            Number of          Percent of            Number of       Percent of
 Office             TMs                TMs (%)               TACs (of 275    TACs (%)
                    (61 total)                               total)

 OCIO                             29                 48                186                68

 Non-OCIO                         32                 53                 89                32

Source: OIG analysis of CTACS data as of September 9, 1999



This data shows that most non-OCIO TMs are doing very few TACs, which could
result in their having greater difficulty in effectively managing work. As shown
above, 32 percent of TACs are managed by non-OCIO TMs. Further analysis
revealed that about one third of the 89 TACs shown are managed by just two of the
32 non-OCIO TMs. A senior CISSCO program official agreed with this assessment
and noted that non-OCIO TMs may not possess the IT experience needed to
effectively manage TACs. In fact, according to our CISSCO Program Survey, 41
percent of all responding TMs said that they were not sufficiently familiar with the
Agency’s IT architecture, and planned changes to the architecture, to effectively
plan or manage IT work.

As stated earlier in this report, IGCEs need to be accurate and reliable in order to
assess the quality and costs of acquisitions. A well-written SOW is crucial to
developing a useful IGCE. However, 40 percent of the TMs who responded to our
CISSCO Program Survey indicated that they had not received sufficient training and
guidance in preparing IGCEs. In addition, 28 percent of the responding TMs
indicated they had not received sufficient training in preparing SOWs. In our
opinion, the Agency needs to ensure that all personnel charged with the important
responsibilities of planning, managing, and assessing work under CISSCO have the
appropriate skills needed to carry out their assigned duties.

As of February 15, 2000, there have been 66 TMs who have managed TACs.
However, according to OCIO figures, more than 150 NRC staff have been certified
by OCIO to be CISSCO TMs by completing the two required CISSCO training
courses.       Given this large number of staff who could be assigned TM
responsibilities, and the varying levels of their skills and experience, we question
whether this is the most efficient and effective method for managing CISSCO work.


OIG/99A-13                                                                            Page 11
Review of NRC’s Controls Over Work Performed Under CISSCO



        NRC DOES NOT FORMALLY EVALUATE THE EFFECTIVENESS OF USING GSA/FEDSIM

                NRC’s Management Directive system provides guidance for Agency procurement
                actions. As we note below, the Agency is currently developing new guidance for
                interagency agreements that will supplement existing directives. Existing guidance
                suggests that the Agency conduct annual evaluations for certain, larger dollar
                procurement agreements. In our opinion, such evaluations are part of good
                business practices. These evaluations, and contractor comments in response,
                would be used to discuss contractor performance and customer satisfaction, and
                provide information to other Federal agencies seeking input on contractors’
                performance while doing business with NRC. Such evaluations also provide current
                information to NRC Source Evaluation Panels, and other Federal agencies as
                requested, for source-selection purposes. In our opinion, performance evaluations
                also provide supporting justification for exercising option years of multi-year
                agreements.

                In a March 1996 memorandum to the Chairman, the Executive Director for
                Operations stated that the use of GSA/FEDSIM would provide NRC with technical
                expertise; timely, value-added acquisitions; and third party objectivity with unbiased,
                independent reviews. In addition, in a May 1996 memorandum acknowledging the
                use of GSA/FEDSIM for systems integration, the Chairman cautioned the NRC staff
                to ensure that the interagency agreement be crafted to ensure timeliness and level
                of expertise commitments from GSA/FEDSIM. The Chairman added that the staff
                should ensure that NRC objectives have been satisfactorily addressed in the first
                year of CISSCO implementation before longer term commitments under the
                interagency agreement were made. We believe such expectations should be
                included in evaluations of performance.

                We found that OCIO has not conducted formal evaluations of GSA/FEDSIM’s
                performance. Currently, OCIO informally assesses GSA/FEDSIM’s performance
                through daily interaction, periodic meetings, and ad hoc reports which keep OCIO
                informed of issues within the program. The NRC’s CISSCO Program Director
                believes this evaluation method is sufficient and maintains no documentation of this
                evaluation. We believe that, without the support of formal evaluations, the Agency
                cannot be sufficiently assured that it is making effective use of its resources in
                continuing the agreement with GSA/FEDSIM.(10)

        MANAGEMENT ACTIONS

                In response to OIG concerns, ADM has formed a task group to develop a
                management directive and handbook on the award and administration of NRC’s
                Interagency Agreements. These documents will define the responsibilities of
                Agency personnel working with interagency and international agreements, and will


        10
                We note that the charges to NRC under the Basic Agreement with GSA/FEDSIM rose
                from an average of about $15,000 per month in FY 1998 to about $19,000 per month in
                FY 1999 due to additional cost recovery fees imposed by GSA/FEDSIM.

                OIG/99A-13                                                                      Page 12
                                       Review of NRC’s Controls Over Work Performed Under CISSCO



        contain procedures for administration of these agreements. The guidance will
        address interagency arrangements, such as that with GSA/FEDSIM.


CONCLUSIONS

        The Agency has chosen to provide for many of its IT needs through an innovative
        effort - CISSCO. In doing so, it hopes to avoid and correct past difficulties with
        systems development and maintenance. Nonetheless, the Agency’s contract
        arrangement for CISSCO is of a type that places most of the risk for performance
        on the Agency itself.

        Based on our review, CSC generally appears to be providing products and services
        that meet the Agency’s quality guidelines (via SDLCM) within agreed-to delivery
        dates. However, we believe that the Agency should be more proactive to ensure
        that QA efforts are both effective and efficient. Without sufficient review and
        monitoring of CSC’s QA efforts, specifically the QA Plan, the Agency cannot be sure
        that it is expending its resources efficiently.

        We also believe that improvements are needed to effectively mitigate risks
        associated with this contracting arrangement. In our opinion, the Agency has made
        a presumption of reasonableness of cost without sufficient basis. We also found
        that, although several features were originally incorporated into the CISSCO
        concept to safeguard against identified risks, OCIO did not implement or continue
        with a number of the proposed controls. We believe that the implementation of the
        proposed risk mitigating features could have addressed the vulnerabilities related
        to costs in this type of contract arrangement.

        Furthermore, in both our CISSCO Program Survey and in interviews, we found that
        cost is the main concern of those involved with CISSCO. Given the single-
        contractor arrangement, we believe that NRC has not provided sufficient assurance
        of the reasonableness of costs for work performed under CISSCO. Without
        competition for NRC work, the use of the IGCE and any resulting negotiation
        become the main avenue available to the Agency to provide assurance that costs
        are reasonable. However, with a single contractor, the effective use of this tool
        must be based on a demonstration that costs will generally be reasonable for work
        performed. This assurance, normally provided by competition, can be provided by
        other practices; for example, the use of an IV&V. Without such independent cost
        assurances, the Agency must rely on other methods to provide assurance of the
        reasonableness of costs. In our opinion, the Agency has not provided that
        assurance for CISSCO. We also believe these cost control weaknesses are directly
        related to the structure of the CISSCO program. As noted earlier, we plan to
        explore this structure with additional work, the results of which may impact any
        actions the Agency decides to take to provide adequate assurance of the
        reasonableness of costs for work performed under CISSCO.

        In addition, we believe that the Agency should reassess the decision to assign
        CISSCO task management responsibilities to such a large number of individuals.

        OIG/99A-13                                                                       Page 13
Review of NRC’s Controls Over Work Performed Under CISSCO



                The Agency should also identify the skills needed to successfully accomplish TM
                duties and ensure that staff appointed as TMs are able to effectively manage work
                under CISSCO.

                With regard to the Basic Agreement with GSA/FEDSIM, existing guidance suggests
                that the Agency conduct annual evaluations for certain, larger dollar procurement
                agreements. We believe that the informal evaluation of GSA/FEDSIM currently
                being done does not satisfy this guidance. In our opinion, without a more rigorous
                evaluation of GSA/FEDSIM’s performance, the Agency cannot be assured that it is
                effectively expending resources on this agreement.



RECOMMENDATIONS

                The Agency needs to ensure that its limited resources are used effectively and
                efficiently. Because we plan to review the structure of the CISSCO program, we are
                not making recommendations regarding the reasonableness of costs at this time.
                To address the other areas discussed in this report, we recommend that the Acting
                Chief Information Officer:

                1.      Be more proactive in ensuring that CSC’s efforts under its Quality
                        Assurance Plan are an efficient use of Agency resources by, for example,
                        performing a review of CSC’s QA efforts on a semiannual basis.

                2.      Work with the Executive Director for Operations to:

                        (a) assess the effectiveness of assigning CISSCO task management
                        responsibilities to such a large number of individuals, (b) identify the skills
                        needed to successfully accomplish TM duties, and (c) ensure that personnel
                        assigned as TMs are adequately prepared to carry out these responsibilities.

                3.      Pending issuance of the new MD covering interagency agreements, conduct
                        the annual, formal evaluations of the interagency agreement with
                        GSA/FEDSIM suggested by NRC’s MD 11.1.


OIG COMMENTS ON THE AGENCY’S RESPONSE

                On March 6, 2000, the Acting Chief Information Officer, in coordination with the
                Office of the Executive Director for Operations, responded to our draft report. They
                agreed with our recommendations and provided time frames for the actions they
                plan to take. We believe those actions will address the intent of our
                recommendations. Also, based on discussions with OCIO officials, we have made
                changes to the report where appropriate.




                OIG/99A-13                                                                      Page 14
                                                                                     Appendix I
                                       Review of NRC’s Controls Over Work Performed Under CISSCO




OBJECTIVES, SCOPE, AND METHODOLOGY

        The main objectives of our audit were to determine, with regard to the Agency’s
        Comprehensive Information Systems Support Consolidation (CISSCO) program,
        whether: (1) the Nuclear Regulatory Commission (NRC) is ensuring that
        (a) projects are completed at a reasonable cost, (b) quality assurance measures are
        adequate, and (c) products are received in a timely manner; and (2) NRC is
        evaluating the effectiveness of using the General Services Administration’s Federal
        Systems Integration and Management Center (GSA/FEDSIM).

        Additional objectives of our review were to determine whether: (1) Computer
        Sciences Corporation (CSC) charges for estimates are allowable; (2) CSC
        appropriately bills for employees not on the dedicated CISSCO team; and (3) CSC
        employees not on the dedicated CISSCO team are being appropriately counted for
        Small Business purposes. We focused on reviewing the management controls
        associated with CISSCO and included all work performed under the contract from
        inception to date. The scope of this audit did not encompass the appropriateness
        of the CISSCO contractual arrangements. We are currently reviewing this issue
        and will report our findings at a later date.

        To accomplish our objectives, we reviewed the Agency’s controls over costs, quality
        assurance, and timeliness of product and service delivery. We interviewed CISSCO
        program officials, GSA/FEDSIM officials, CSC officials, and other NRC personnel
        involved with CISSCO. We also held discussions with the U.S. Agency for
        International Development, an Agency using a similar IT acquisition approach
        through the GSA/FEDSIM information technology vehicle, and with the Office of
        Federal Procurement Policy which provides guidance related to the use of Multiple
        Award Contracts.

        In addition, we analyzed the Agency’s Basic Agreement with GSA/FEDSIM and
        GSA/FEDSIM’s contract with CSC. We reviewed the Federal Acquisition
        Regulation and NRC’s Management Directives for associated requirements. We
        also examined data from the CISSCO TAC System that is used to track work under
        CISSCO and reviewed documentation for a number of CISSCO work orders.

        Because of the importance of CISSCO, we decided to obtain the opinions of a large
        number of associated individuals over a broader subject matter and developed a
        Survey instrument that was sent to approximately 120 persons who have worked
        with CISSCO. Those responses are included in the report where appropriate and
        are further presented in Appendix II.

        We evaluated the relevant management controls over work performed under
        CISSCO and conducted our audit from April 1999 through October 1999 in
        accordance with generally accepted Government auditing standards.


        OIG/99A-13                                                                    Page 1 of 1
                                                                                      Appendix II
                                        Review of NRC’s Controls Over Work Performed Under CISSCO



CISSCO PROGRAM SURVEY RESULTS

        In order to obtain the views and opinions of a large number of those involved with
        the CISSCO program over a broad range of topics, we determined that a Survey
        instrument would best serve our needs. Based on interviews with CISSCO officials,
        Task Managers, others associated with the program, and on research into similar
        questionnaires, a pretest version of the Survey instrument was developed. This
        version was tested with a group of 14 volunteers from among those working with the
        program. We then discussed the results of the pretest with each volunteer.

        Survey questions were finalized based on the input of the pretest group and on
        reviews performed by senior Office of the Chief Information Officer officials. Survey
        questions were grouped in the categories of (1) cost, (2) schedule (timeliness), (3)
        quality assurance, (4) customer satisfaction, and (5) personnel qualifications.(1) The
        final Survey instrument was administered, with the support of the Acting Chief
        Information Officer, to 121 individuals from August 9 through August 18, 1999. Of
        the 121 employees asked to participate, 63 completed valid surveys for an overall
        return rate of 52 percent. This return rate is more than sufficient to provide a
        reliable and valid measure of the current views and opinions of those involved with
        the CISSCO program.

        Survey questions were of two types, scaled (Always to Never) and Yes/No. For
        scaled questions, we calculated the average or mean response for all respondents
        and for various demographic groups. For Yes/No questions, we calculated the
        percentage responding Yes and No. We have incorporated results where relevant
        in the body of this report.

        This Appendix includes the overall results for the Survey. The results of our
        analyses have been discussed with agency officials and may be used as
        appropriate for other purposes. We provided agency officials with the raw data from
        the Survey responses, with our analyses, and with the Survey instrument itself for
        their future use, if appropriate.




    1
        The questions in the “personnel qualifications” category are entirely in the Yes/No
        section. Because the Yes/No questions are a mix of all categories, this category does
        not have a heading in the accompanying CISSCO Survey Results table.

        OIG/99A-13                                                                     Page 1 of 5
Appendix II
Review of NRC’s Controls Over Work Performed Under CISSCO




                           CISSCO PROGRAM SURVEY RESULTS
                                  SCALE                  ( ) = # of survey     COUNT OF          ALL
                                                         respondents          PEOPLE WHO         (63)
                                                                             RESPONDED TO
                                                                                 EACH
 1=always; 2=most of the time; 3=half of the time; 4=seldom;
                                                                               QUESTION
 5=never

 SCHEDULE                                                                    (excluding “NA”   AVERAGE
                                                                                 or “DK”        SCALED
                                                                                answers)
                                                                                                SCORE
 1.       Has CSC delivered your products or services within the agreed            56            2.3
          upon delivery schedules?

 2.       Are CSC’s delivery schedules commensurate with the complexity            54            2.2
          of your work?

 3.       Do you participate in establishing delivery schedules with CSC?          52            2.3
 4.       Are CSC monthly status reports detailed enough to help you               43            2.6
          evaluate the project’s progress against the established
          schedule?

 5.       Do you receive timely notification of any changes to the agreed          43            2.4
          upon delivery schedules?

 6.       Does CSC address the cause of schedule delays in a timely                45            2.4
          manner?

 7.       Do you review the causes of delivery schedule changes with               40            2.1
          CSC to improve scheduling?

 8.       Do you receive CSC monthly status reports within a useful time           40            2.5
          frame?

 COST
 9.       Do CSC’s estimates contain sufficient information for you to             48            2.9
          determine the reasonableness of their proposed costs?

 10.      Do you document the reasons for differences between your IGCE            38            2.7
          and CSC’s proposed costs?

 11.      Are discussions with CSC effective in reaching an agreement on           40            2.5
          final cost estimates for a given task?

 12.      Are costs under CISSCO commensurate with work completed?                 46            2.6
 13.      Do you receive adequate support from your management in                  46            2.4
          efforts to control costs?

 14.      Are CSC monthly status reports sufficiently detailed to help you         43            3.0
          evaluate the reasonableness of incurred costs?




                 OIG/99A-13                                                                       Page 2 of 5
                                                                                                    Appendix II
                                                      Review of NRC’s Controls Over Work Performed Under CISSCO




                         CISSCO PROGRAM SURVEY RESULTS
                                SCALE                  ( ) = # of survey      COUNT OF              ALL
                                                       respondents           PEOPLE WHO             (63)
                                                                            RESPONDED TO
                                                                                EACH
1=always; 2=most of the time; 3=half of the time; 4=seldom;
                                                                              QUESTION
5=never


QUALITY
15.     Do CSC project teams adequately understand your task                       53               2.2
        requirements prior to beginning the work?

16.     Do you get OCIO technical support when needed to accomplish                46               2.3
        work under CISSCO?

17.     Has CSC ensured that its work teams have the needed                        51               2.3
        personnel to meet your requirements for a given task?

18.     Are problems you have identified during the course of a task               47               2.1
        recorded, tracked, and resolved by the end of the task?

19.     Do CSC staff possess sufficient technical expertise to address             51               2.1
        problems with your work requests?

20.     Does CSC comply with your SOW requirements?                                48               1.8
21.     Are you satisfied with the quality of CSC products?                        54               2.3
22.     Has CSC complied with SDLCM requirements on your tasks?                    35               1.8
23.     Can you obtain additional training, when needed, to improve your           30               2.0
        proficiency in accomplishing work under CISSCO?

CUSTOMER SATISFACTION
24.     Do you receive adequate assistance from CISSCO program                     49               2.2
        officials?

25.     Do you receive adequate assistance from your ADD Business                  32               2.3
        Area Team in performing work under CISSCO?

26.     Are you able to effectively communicate with CSC about                     51               2.0
        projects?

27.     Are you satisfied with the IT products and services being                  53               2.3
        delivered by CSC?

28.     Are you satisfied with the maintenance and support provided by             48               2.3
        CSC?

29.     Does CISSCO meet your needs as an IT procurement strategy?                 52               2.5




               OIG/99A-13                                                                            Page 3 of 5
Appendix II
Review of NRC’s Controls Over Work Performed Under CISSCO




                             CISSCO PROGRAM SURVEY RESULTS
                                                                                COUNT OF      OVERALL
                                                                               PEOPLE WHO       (%)
   The following items are reported as percent                                 RESPONDED
   responding Yes or No                                                          TO EACH
                                                                                QUESTION

                                                                                (excluding    YES   NO
                                                                               “NA” or “DK”
                                                                                 answers)

   30.        Does the CISSCO process encourage you to report minor
              problems before they become major problems?                          42         52    48
   31.        Have CISSCO program officials requested your input to                53         34    66
              assess your satisfaction with the program?

   32.        Do you have sufficient opportunity to comment to CISSCO              47         68    32
              program officials about CSC’s performance?

   33.        Do you believe that SDLCM is sufficiently flexible for your IT       42         41    59
              needs?

   34.        Have CISSCO processes changed to better meet your                    37         30    70
              needs?

   35.        Has the agency provided you with sufficient written guidance         49         71    29
              for conducting work using CISSCO?

   36.        Have you received sufficient training and guidance in                49         53    47
              preparing IGCEs?

   37.        Have you received sufficient training and guidance in                50         66    34
              preparing SOWs?

   38.        Do you feel you have received sufficient technical training to       49         71    29
              be effective in working with IT projects?

   39.        Are you sufficiently familiar with the agency’s current IT           45         44    56
              architecture, and planned changes to the architecture, to
              effectively plan or manage IT work?

   40.        Do you feel your responsibilities as a CISSCO Task                   45         60    40
              Manager are well-defined?

   41.        Do you feel your responsibilities as an IT Coordinator are           22         46    54
              well-defined?

   42.        Are you aware of the procedures to follow to use vendors             49         45    55
              other than CSC for systems development, enhancement, or
              maintenance?

   43.        Would the CISSCO program benefit from having an in-house             37         73    27
              contracting officer?




                   OIG/99A-13                                                                       Page 4 of 5
                                                                                                 Appendix II
                                                   Review of NRC’s Controls Over Work Performed Under CISSCO




                     CISSCO PROGRAM SURVEY RESULTS
                                                                         COUNT OF          OVERALL
                                                                        PEOPLE WHO           (%)
The following items are reported as percent                             RESPONDED
responding Yes or No                                                      TO EACH
                                                                         QUESTION

                                                                         (excluding      YES       NO
                                                                        “NA” or “DK”
                                                                          answers)

44.   Do you feel that you have adequate control over IT projects
      performed under CISSCO in terms of:                                    49           33       67
                                          cost?

                                           quality?                          49           65       35
                                           timeliness?                       51           53       47
45.   Given the requirements of SDLCM, and the efforts to
      integrate the agency’s IT systems, do you believe that
      allowing additional firms to compete for work currently
      performed by CSC would benefit the agency in terms of:

                                           cost?                             48           71       29

                                           quality?                          46           67       33
                                           timeliness?                       47           64       36




          OIG/99A-13                                                                              Page 5 of 5
                                                                           Appendix III
                              Review of NRC’s Controls Over Work Performed Under CISSCO



ABBREVIATIONS AND ACRONYMS

        ADM          Office of Administration
        BA           Basic Agreement
        CIO          Chief Information Officer
        CISSCO       Comprehensive Information Systems Support
                          Consolidation program
        CSC          Computer Sciences Corporation
        CTACS        CISSCO TAC System
        DCPM         Division of Contracts and Property Management
        FAR          Federal Acquisition Regulation
        FEDSIM       Federal Systems Integration and Management Center
        FY           fiscal year
        GSA          General Services Administration
        HR           Office of Human Resources
        IGCE         Independent Government Cost Estimate
        IT           information technology
        IV&V         independent validation and verification
        MAC          multiple award contract
        MD           Management Directive
        NRC          U.S. Nuclear Regulatory Commission
        OCIO         Office of the Chief Information Officer
        OIG          Office of the Inspector General
        QA           quality assurance
        QA Plan      CISSCO Quality Assurance Plan
        SDLCM        System Development Life-Cycle Management
                            Methodology
        SOW          statement of work
        TAC          Task Assignment Control
        TM           Task Manager




        OIG/99A-13                                                           Page 1 of 1
                                                                                           Appendix IV
                                              Review of NRC’s Controls Over Work Performed Under CISSCO



AGENCY RESPONSE TO DRAFT REPORT

                                         March 6, 2000


MEMORANDUM TO:                Thomas J. Barchi
                              Assistant Inspector General for Audits
                              Office of the Inspector General

                              [original signed by]
FROM:                         Stuart Reiter
                              Acting Chief Information Officer

SUBJECT:                      OCIO COMMENTS ON OIG REVISED DRAFT AUDIT REPORT
                              “REVIEW OF NRC’S CONTROLS OVER WORK PERFORMED
                              UNDER CISSCO”


I am responding to the February 17, 2000, Office of the Inspector General’s revised draft audit
report, “Review of NRC’s Controls Over Work Performed Under CISSCO.” We understand from
the report that you have found that the Agency has provided further assurance of the quality of the
products and services delivered through CISSCO through its implementation of a Systems
Development and Life Cycle Management (SDLCM) methodology and Computer Science
Corporation’s (CSC) adherence to that methodology. You also note that CSC has generally met
proposed schedules for product and service delivery and that Agency staff have few concerns in
this area. We also understand that you found the following three areas you audited to be
satisfactory: (1) contractor charges for preparing estimates, (2) billing for non-CISSCO contractor
staff, and (3) accounting for non-dedicated contractor staff for Small Business reporting.

Our responses to your recommendations are as follows:

Recommendation 1:

Be more proactive in ensuring that CSC’s efforts under its Quality Assurance Plan are an efficient
use of Agency resources by, for example, performing a review of CSC’s QA efforts on a
semiannual basis.

Response:

OCIO agrees. The first semiannual review will be completed in August, 2000.

Recommendation 2:

Work with the Executive Director for Operations to: (a) assess the effectiveness of assigning
CISSCO task management responsibilities to such a large number of individuals, (b) identify the
skills needed to successfully accomplish Task Manager (TM) duties, and (c) ensure that personnel
assigned as TMs are adequately prepared to carry out these responsibilities.


               OIG/99A-13                                                                    Page 1 of 2
Appendix IV
Review of NRC’s Controls Over Work Performed Under CISSCO



Thomas J. Barchi                                 -2-

Response:

OCIO agrees. By the end of FY 2000, OCIO and EDO/ADM staff, working closely with offices
using CISSCO services, will complete assessing the number of staff assigned as TMs; will identify
skills needed to perform TM duties; and will ensure that personnel being assigned TM
responsibilities receive appropriate training.

Recommendation 3:

Pending issuance of the new Management Directive (MD) covering interagency agreements,
conduct the annual, formal evaluations of the interagency agreement with GSA/FEDSIM suggested
by NRC’s MD 11.1.

Response:

OCIO agrees. The first annual review will be completed in September, 2000.

OEDO has coordinated on the responses to these recommendations.




                OIG/99A-13                                                              Page 2 of 2
                                                                         Appendix V
                           Review of NRC’s Controls Over Work Performed Under CISSCO



NRC ORGANIZATIONAL CHART




        OIG/99A-13                                                        Page 1 of 1
                                                                          Appendix VI
                             Review of NRC’s Controls Over Work Performed Under CISSCO



MAJOR CONTRIBUTORS TO THIS REPORT

        William McDowell
        Team Leader

        Robert Moody
        Audit Manager

        Catherine Colleli
        Management Analyst

        Yvette Russell
        Auditor




        OIG/99A-13                                                          Page 1 of 1
                                                                                        Appendix VII
                                            Review of NRC’s Controls Over Work Performed Under CISSCO



OFFICE OF THE INSPECTOR GENERAL PRODUCTS

            INVESTIGATIVE
1.   INVESTIGATIVE REPORT - WHITE COVER
     An Investigative Report documents pertinent facts of a case and describes available
     evidence relevant to allegations against individuals, including aspects of an allegation not
     substantiated. Investigative reports do not recommend disciplinary action against individual
     employees. Investigative reports are sensitive documents and contain information subject
     to the Privacy Act restrictions. Reports are given to officials and managers who have a
     need to know in order to properly determine whether administrative action is warranted.
     The agency is expected to advise the OIG within 90 days of receiving the investigative
     report as to what disciplinary or other action has been taken in response to investigative
     report findings.

2.   EVENT INQUIRY - GREEN COVER
     The Event Inquiry is an investigative product that documents the examination of events or
     agency actions that do not focus specifically on individual misconduct. These reports
     identify institutional weaknesses that led to or allowed a problem to occur. The agency is
     requested to advise the OIG of managerial initiatives taken in response to issues identified
     in these reports but tracking its recommendations is not required.

3.   MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
     MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of
     problems and to avoid similar issues in the future. Agency tracking of recommendations
     is not required.

            AUDIT

4.   AUDIT REPORT - BLUE COVER
     An Audit Report is the documentation of the review, recommendations, and findings
     resulting from an objective assessment of a program, function, or activity. Audits follow a
     defined procedure that allows for agency review and comment on draft audit reports. The
     audit results are also reported in the OIG's "Semiannual Report" to the Congress. Tracking
     of audit report recommendations and agency response is required.

5.   SPECIAL EVALUATION REPORT - BURGUNDY COVER
     A Special Evaluation Report documents the results of short-term, limited assessments. It
     provides an initial, quick response to a question or issue, and data to determine whether
     an in-depth independent audit should be planned. Agency tracking of recommendations
     is not required.

            REGULATORY

6.   REGULATORY COMMENTARY - BROWN COVER
     Regulatory Commentary is the review of existing and proposed legislation, regulations, and
     policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in
     programs and operations. Commentaries cite the IG Act as authority for the review, state
     the specific law, regulation or policy examined, pertinent background information
     considered and identifies OIG concerns, observations, and objections. Significant
     observations regarding action or inaction by the agency are reported in the OIG Semiannual
     Report to Congress. Each report indicates whether a response is required.

            OIG/99A-13                                                                     Page 1 of 1
